IN THE SUPREME COURT OF THE UNITED STATES
No. -BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING SERVICES;
United States Department of Defense,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel C. Willman, counsel for Petitioner Bryan James Strother, hereby
certify per S.Ct. Rule 29 (4) that on August 17, 2019, I served three (3) copies of
Petitioners’ Petition for a Writ of Certiorari, Rule 33(g) Certificate of Compliance and
Proof of service, upon the address below of the Office of the Solicitor General of the
United States via The United States post office priority mail: Tracking No.

9505

5137 4822 9228 3919 86 is included with electronic filing. I further certify that all
parties required to be served have been served.
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, Dc 20530-0001.

Dated: August 16, 2019

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

